Certificate of Good Faith

Per Rule 44, U.S. Supreme Court Rules, petitioner asserts the following: petitioner does
not have a capital case. The contemporaneously filed appeal is filed in good faith, and is not
filed for the purposes of a delay in execution.

The issues presented herein are supported by fact and by U.S. Supreme Court
Precedent.

Josh Bowman

Supplemental Certificate as to Grounds

This Petition states grounds that are based upon substantial grounds and
arguments that were not previously presented in the form set forth herein. Petitioner is a
pro se inmate, and is uneducated in the law, but based upon his research and best legal
efforts this Petition for rehearing presents arguments in a manner that were not previously
presented.

-rr>7i
(dosh Bowman

i

((- z&'td

